Review of the Contractor Tool Program for
    the Watts Bar Nuclear Plant Unit 2
           Construction Project

          Inspection 2008-11911
            December 11, 2008
Summary
   Our objective was to assess the procedures and key control activities
   used
      d tto track
            t k andd accountt ffor ttools
                                       l on th
                                            the W
                                                Watts
                                                  tt BBar N
                                                          Nuclear
                                                             l    Pl
                                                                  Plantt
   Unit 2 Construction Project (WBN U2 Project).


   O review
   Our  i   off th
                the WBN U2 P
                           Project
                              j t ttooll program ffound:
                                                      d
      Nothing to indicate significant discrepancies in the tool inventory at this time.
      Data entry errors in the Tool Hound system.
      Opportunities exist to improve controls,
                                      controls based on our review of {REDACTED} Small
       Tools and Small Capital Equipment Procedure.
      Some non-compliances with {REDACTED} Small Tools and Small Capital Equipment
       Procedure.




                                                                                           2
Background
     This inspection was a planned review of the {REDACTED} tool program for the
      WBN U2 Project
               Project.
     The contract for the WBN U2 Project requires TVA to provide all construction
      equipment, small tools, consumables, safety supplies, construction aids, and
      construction facilities.
      –   Small tools include all items used by construction forces (craft, technical personnel, etc.)
          to install, stage, store, test, maintain, complete, and inspect (1) permanent plant
          equipment, (2) temporary material and facilities, as well as (3) construction equipment.
      –   An item will be considered a small tool if it costs less than $1,500; if an item costs more
          than $1
               $1,500,
                  500 it will be considered construction equipment
                                                            equipment.
     As of July, 23, 2008, there were 669 items with a total value of $834,145.95 in
      the {REDACTED} tool inventory system, Tool Hound.
      –   However, according to {REDACTED} personnel, only approximately 60 percent of the
          tool inventory had been entered into the system at the time of our review
                                                                             review.




                                                                                                        3
Background (cont.)
     {REDACTED} Small Tools and Small Capital Equipment Procedure establishes
      the work process the contractor will use in acquiring and managing small tool
      inventories on the WBN U2 Project. The procedure specifies:
      –   Timekeeping shall provide a list of all craft workers to upload into Tool Hound. At a
          minimum, the list shall include the employee's first and last name, employee number,
          badge bar-code
                bar code number, craft class code, and supervisor bar code.
      –   All shipments of tools and consumables received at the jobsite shall be bar coded,
          entered into the tool management system, and stored in appropriate bin/storage
          locations.
      –   Only craft workers and supervisors with valid employee badges in-hand can check out
          tools and supplies from the tool cribs.
      –   Only authorized employees are allowed in the tool cribs and tool storage areas.
      –   Nothing is to be dispensed from the tool crib without scanning the item's barcode(s) and
          th employee's
          the     l     ' b
                          badge.
                             d
      –   All employees who leave the project shall be required to complete a tool crib clearance
          as part of their final processing. A "Tools Out" report will be run against the employee's
          badge number, and all tools checked out to the employee should be returned to the tool
          crib or accounted for before their departure from site
                                                             site.


                                                                                                       4
Objective and Scope
     Objective: Assess the procedures and key control activities used to
      t k and
      track   d accountt ffor tools
                              t l on th
                                     the WBN U2 P
                                                Project.
                                                   j t


     Scope: {REDACTED} WBN U2 Project tool program.




                                                                            5
Methodology
     Methodology: To assess the procedures and key control activities used
      to track and account for tools,
                               tools we:
      – Reviewed documentation, conducted a process walkdown with WBN U2
        Project contractor personnel, observed operations, and conducted interviews
        necessary to identify contractor requirements, practices, and potential control
        g p
        gaps.
      – Reviewed {REDACTED} Small Tools and Small Capital Equipment
        Procedure to identify potential control gaps and improvement opportunities.
      – Assessed tool accountability and the accuracy of the tool management
        process by:
        p         y
            Verifying the existence and assigned user possession of selected tools.
            Comparing the actual tool status for selected tools with the status shown in Tool
             Hound (e.g., Issued or Available for Issue).

       This inspection was conducted in accordance with the "Quality Standards for Inspections."




                                                                                                   6
Finding 1 – Tool Inventory
      We found nothing to indicate significant discrepancies in the tool
      inventory at this time
                        time. However
                              However, we did note some minor discrepancies
      in the tracking quantities and unit cost listed in Tool Hound. Some of
      the discrepancies identified were low-dollar consumable items and
      overages
            g due to purchase orders not yyet entered into Tool Hound.
     We selected three separate samples and performed inventory for the
      sample items.
      – Our first sample
                     p was taken from the inventory  y loaded in Tool Hound,, which
        included 669 items with a total value of $834,145.95.
            We selected a dollar unit sample of 73 items with a total dollar value of $460,347.66
             and verified the tools were stored in the toolroom or documentation existed to
             account that theyy were checked out to individuals in the field.
             –   We identified shortages on 9 of the 73 items. The total of the missing inventory was
                 $1,646.01, or less than 0.5 percent of the sample inventoried.
             –   Some of the missing items included 2 of 20, 3/8" drills; 3 of 9 rolling ladders; and 4 of 10 air
                 hoses.




                                                                                                                    7
Finding 1 – Tool Inventory (cont.)
         While we selected a dollar unit sample in order to be able to project the total
          population errors,
                      errors data entry errors in the Tool Hound system prevented us from
          doing this.
          –   We identified three items in our sample with keying errors. The total cost of the keying errors
              was $102,834.52, or 22 percent of the sampled inventory.




                                                                                                                8
Finding 1 – Tool Inventory (cont.)
    – The second sample was a judgmental sample of the inventory that had not
      been entered into the system,
                            system which according to {REDACTED} was
      approximately 40 percent of the tools inventory. We identified these items
      through receiving reports, purchase orders, and other documentation.
          In summary, we selected 15 items with a total listed quantity on hand of 278 items
           and a cost of $29
                          $29,017
                               017 and verified the tools were stored in the toolroom or that the
           individuals in the field could account for the location.
           –   We found 2 of the 15 items selected had shortages. The total cost of the missing items was
               $120.21, or less than 1 percent of the total sample. The shortages consisted of only 1 of 15
               bridge clamps and 3 of 180 sockets.

    – The last sample was a judgmental sample of individuals with tools checked
      out in Tool Hound.
          We selected ten individuals with tools checked out in Tool Hound and verified that
           the individuals in the field could account for the location of the tools
                                                                              tools. They had a total
           of 136 items with a value of $17,101 checked out.
           –   We were unable to locate 2 of the 136 items selected in our sample. The total cost of the
               missing items was $274, or 1.6 percent of the total sample. The missing items were an
               oxygen regulator and an acetylene regulator that were checked out to the same contractor
               employee.


                                                                                                              9
Finding 2 – Control Gaps
     We reviewed {REDACTED} WBN U2 Project small tools procedure,
      and based on audit knowledge obtained during previous reviews
                                                                  reviews, we
      identified four controls that could potentially strengthen {REDACTED}
      procedure:
      – Establishing a tool issue limit to prevent excess tool checkout.
      – Including an accountability statement that individuals are responsible for the
        tools and equipment issued to them and will be held accountable for their
        return to the toolroom. The individual will be given credit for the tools he/she
        returns.
        returns
      – Developing guidelines for reporting loss, theft, or vandalism of tools.
      – Monitoring repeated lost, stolen, or damaged tools by individuals to identify
        potential abuse and theft.
        p
     Also, while performing our walkdown of the {REDACTED} toolroom, we
      were told that items costing less than $50 are considered bulk items
      and not individually tracked. However, there is nothing in
      {
      {REDACTED}
             C      }SSmall Tools and S Small C
                                              Capital Equipment Procedure
      defining the criteria of bulk items.
                                                                                        10
Finding 3 – Additional Observations
     There are two sea/land containers outside the toolroom that contain
      overflow inventory items such as electrical equipment,
                                                  equipment rope
                                                             rope, core drills
                                                                        drills,
      and chainsaws. The containers were unmanned and unlocked.
      {REDACTED} personnel stated the containers are locked at night.
     During our review
                  review, we noted instances of non-compliance with
      {REDACTED} Small Tools and Small Capital Equipment Procedure.
      Specifically,
      – Tools are checked out using   gppaper
                                          p entries when the employee
                                                                    p y checking g out
        the tool does not have a bar-coded badge, the tool is not bar coded, or there
        is a significant line of people waiting to check out tools. {REDACTED} Small
        Tools and Small Capital Equipment Procedure specifically states that only
        craft workers and supervisors
                               p         with valid employee
                                                      p y badges  g in-hand can check
        out tools, and nothing is to be dispensed from the tool crib without scanning
        the item's bar code and the employee's badge.
      – While {REDACTED} produced 15 of 15 impact adaptor tools during our
        sample testing
                testing, 8 of 15 were not given a unique Tool Hound number as
        required by their procedure.
                                                                                    11
Recommendations
     We recommend {REDACTED}:
      – Ensure accuracy of data entry in the Tool Hound system.
      – Consider modifying {REDACTED} WBN U2 Project small tool procedure to
        include (1) the additional control opportunities identified and (2) the value
        criteria for bulk items
                          items.
      – Ensure compliance with {REDACTED} Small Tools and Small Capital
        Equipment Procedure.
      – Enhance controls over the inventoryy in unlocked sea/land containers.


      Note: Another assessment will be conducted in the future after construction
            work and staffing increase.




                                                                                        12
